 DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General

     Department of Homeland Security’s
   Procurement and Program Management
                Operations




             Office of Audits
OIG-05-53                       September 2005
                                                                        Office of Inspector
                                                                        General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
effectiveness, and efficiency within the department.

At the request of the Secretary, this report assesses the weaknesses of the DHS’
procurement and program management operations. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation
of this report.




                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary ............................................................................................................ 1

Background ......................................................................................................................... 2

Adherence to Ethical Conduct ............................................................................................ 2

Program Management......................................................................................................... 3

Procurement Management .................................................................................................. 6

Recommendations............................................................................................................... 8

Management Comments and OIG Analysis ....................................................................... 9


Appendices
Appendix A:           Purpose, Scope and Methodology……………………………….…….. 11
Appendix B:           Management’s Comments to the Draft Report …… …………………. 12
Appendix C:           Bibliograhpy…………………………………………………………….16
Appendix D:           DHS Procuremnt Statistics……………………………………………...20
Appendix E:           Major Contributors to this Report…………………………………….…23
Appendix F:           Report Distribution………………………………………………………24



Abbreviations

ASI                   Acquisition Solutions, Inc
CAPS                  Center for Advanced Purchasing Studies
IRB                   Investment Review Board
OCPO                  Office of Chief Procurement Officer
TSA                   Transportation Security Administration
                                                                                                  Audit
OIG                                                                                               Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                     At the request of the Secretary, the Office of Inspector General (OIG), in
                     coordination with the Office of Chief Procurement Officer (OCPO),
                     conducted an assessment of the Department of Homeland Security’s (DHS’)
                     procurement and program management operations. Our purpose was to
                     identify significant weaknesses that may threaten the integrity of these
                     operations. We will use this assessment to identify priorities for future OIG
                     audit work.

                     We conducted this assessment between April 1, 2005 and April 29, 2005. We
                     reviewed prior Government Accountability Office (GAO) and OIG reports,
                     interviewed DHS procurement and project management personnel, and
                     obtained input from OCPO. A bibliography of the OIG and GAO reports
                     reviewed is attached in Appendix C. The nature and brevity of this
                     assessment precluded the use of our normal audit protocols; therefore, this
                     review was not conducted in accordance with generally accepted government
                     auditing standards. (Refer to Appendix A – Purpose, Scope, and
                     Methodology)




        Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                     Page 1
Background
                     DHS purchased almost $9.8 billion of goods and services in fiscal year (FY)
                     2004 through a variety of procurement methods such as contracts, delivery
                     orders, interagency agreements, and purchase cards. In making these
                     procurements, DHS processed almost 60,000 procurement actions, not
                     including credit card purchases. DHS procurement statistics are attached in
                     Appendix D.

                     We identified a number of vulnerabilities and potential vulnerabilities that
                     need to be addressed. These vulnerabilities fall into three general categories:
                     adherence to ethical conduct, program management, and procurement
                     management.


Adherence to Ethical Conduct
                     Executive Order 12674, dated April 12, 1989, as amended, addresses
                     principles of ethical conduct and requires the avoidance of improper practices
                     and conflicts of interest, which in the procurement context can result in fraud,
                     inappropriate use of sole source contracts and cost-reimbursement type
                     contracts as well as excessive award fee evaluations. For example, the
                     Standards of Ethical Conduct for employees of the Executive Branch, 5 CFR
                     Part 2635, prohibit soliciting or accepting, directly or indirectly, any gratuity,
                     gift, favor, entertainment, loan, or anything of monetary value from anyone
                     who (a) has or is seeking to obtain Government business with the employee’s
                     agency, (b) conducts activities that are regulated by the employee’s agency, or
                     (c) has interests that may be substantially affected by the performance or
                     nonperformance of the employee’s official duties. These requirements apply
                     to program personnel who are involved in the procurement process as well as
                     to procurement personnel and other employees of the Executive Branch.

                     Section 2638.703 of Title 5 of the Code of Federal Regulations requires an
                     agency ethics orientation of at least one hour for all new employees and that
                     each employee receive a copy of the Standards of Ethical Conduct. These
                     standards cover such issues as: gifts from outside sources, gifts between
                     employees, conflicting financial interests, impartiality in performing official
                     duties, seeking other employment, misuse of position, and outside activities.
                     In addition, agencies are required to provide annual ethics training for
                     contracting officers among other employees.

                     Section 423 of Title 41 United States Code, among other things, prohibits a
                     former official’s acceptance of compensation from a contractor as an
                     employee, officer, director, or consultant of the contractor within a period of
                     one year after the former official was significantly involved in the award or
                     administration of a contract in excess of $10 million. This restriction applies
        Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                     Page 2
                    to contracting officers, program managers, source selection authority,
                    members of source selection evaluation boards, or chiefs of financial or
                    technical evaluation teams, among others. Additionally, Section 423 requires
                    agency officials participating personally and substantially in certain
                    procurements to report any offers of employement from competing
                    contractors and to reject the offer or disqualify themselves from further
                    participation in the procurement.

                    We recently identified an instance where a Transportation Security
                    Administration (TSA) program official exercised improper influences on
                    procurements. The TSA program official bypassed procurement internal
                    controls. During the administration of a contract for the Transportation
                    Services Operation Center, he procured over $500,000 of decorative items i.e.,
                    art and silk plants, and miscellaneous artwork and decorations from a tool
                    company who had previously never sold such merchandise. The TSA
                    program official required the contractor to revise invoices to hide the true
                    nature of these purchases. By insisting that the tool company submit invoices
                    before the final costs were known, he also approved more than $83,000 in
                    overpayments to the tool company. The TSA program official had a prior
                    business and personal relationship with the tool company and its owners.
                    Within weeks of his resignation from TSA, the individual started a new
                    business with the tool company’s owners. This incident is currently under
                    investigation.

                    DHS’ close relationship with the private sector resulting from its many
                    partnership arrangements, raises concerns that the minimal initial and annual
                    Government ethics training may be insufficient to address standards of
                    conduct issues as they apply to procurement. Senior program and
                    procurement officials would benefit from expanded training and guidance on
                    their procurement ethics responsibilities and the consequences of violating
                    procurement ethics standards both before and after their federal employment
                    tenure.

                    In an effort to detect and prevent procurement fraud within DHS, we are
                    participating on the Procurement Fraud Working Group, a multi-agency effort
                    involving the U.S. Attorney for the Eastern District of Virginia and numerous
                    federal law enforcement offices. Our investigators are actively reviewing
                    suspect procurements and providing fraud awareness and prevention outreach
                    to DHS procurement officials.


Program Management
                    Program management can be defined as the application of the systems
                    approach to the planning and execution of a set of interrelated tasks which,
                    when completed, satisfies some technical, business or social objective. This is
       Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                    Page 3
             especially true for technological programs, whose objectives are explicitly
             stated in terms of time, cost and performance requirements. Federal agencies
             frequently apply program management techniques to oversee complex
             acquisition programs. The systems approach emphasizes treating the program
             components as a whole to maximize product performance while
             simultaneously minimizing program costs and development time. This
             approach uses such techniques as systems engineering and analysis, simulated
             models, earned value management, integrated master plans and schedule,
             work breakdown structures, test and evaluation, and integrated product and
             process development.

             DHS Needs More Certified Program Managers

             Some DHS organizational components have reported a shortage of certified
             program managers to manage the Department’s programs. DHS has identified
             110 major programs, but only 93 out of 175 program managers are currently
             certified. Complex and high dollar contracts require multiple program
             managers. For example, the Deepwater program had 74 program management
             staff members supporting the program during FY 2003.

             DHS has recently taken steps to improve the quantity and quality of program
             management within the department. In May 2004, DHS instituted a program
             management certification process which requires increasing levels of program
             management certification (Levels I – III) based on varying levels of training
             and experience. A higher level certification is required to manage a higher
             dollar value program. For example, Level I Certification is required for
             programs with annual costs ranging from $5 – 50 million or life-cycle costs
             ranging from $20 – 100 million. Level III certification is required for
             programs with annual costs exceeding $100 million or life-cycle costs
             exceeding $200 million.

             Lack of Department-wide Policies and Procedures for Program
             Management Exists

             No DHS organization is responsible for establishing department-wide policies
             and procedures for program management. This function is critical, given the
             numerous mission-critical programs underway that are managed by DHS
             components. Some DHS organizational components have reported
             establishing program management processes within their components. We
             were not able to assess the adequacy or consistency of these processes due to
             the limited duration of our review. However, the need for effective
             department-wide standards for program management processes should not be
             underestimated. We plan to do additional work in this area as part of our
             procurement operations strategy. The Science and Technology Directorate
             recently established the Homeland Security Institute as a Federally Funded
             Research and Development Center to provide independent analysis on
             program management issues. While this is an important first step, the
Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                             Page 4
             department’s need for an internal advocate for effective program management
             remains unfilled.

             Investment Review Board (IRB) Process Needs Strengthening

             Both DHS organizational components and the GAO have identified problems
             with DHS IRB practices to date. DHS instituted the IRB process to integrate
             capital planning and investment control, ensure investments support DHS’
             missions, and consolidate duplicative efforts. The DHS model does not have
             much of the DOD model’s detailed departmental reviews, which provide
             decision makers with advice from functional experts, such as operational test
             evaluators and independent cost estimators. Also, the IRB process
             emphasizes approval and scoring of a specific program plan, rather than
             selection from various alternatives.

             DHS organizational components have reported problems with the IRB
             process, including:
             • unclear as to what steps program managers have to complete during the
                IRB process;
             • substantial amounts of required documentation with no standards for many
                of the documentation requirements;
             • lack of a dedicated IRB staff to review the documentation and provide the
                required necessary independent advice; and
             • lengthy period for programs to obtain funding through the IRB process,
                thereby jeopardizing mission accomplishment.

             The GAO also identified several problems with the current IRB process,
             including:
             • mechanisms not in place to ensure that designs perform as expected and
                 resources match customer needs before investing additional resources;
             • need for program managers to receive formal training on the IRB process;
             • established standards do not exist for required documentation and
                 documents are rejected with little or no explanation;
             • no requirement for critical system and subsystem reviews before
                 production decisions, and
             • in practice, major services acquistions are not subject to IRB review.

             GAO’s recommendations include strengthening IRB policies, increasing
             stakeholder input, providing formal training on IRB requirements, and using
             the IRB to review major service acquisitions. DHS has agreed to implement
             GAO’s recommendations. While we agree with GAO’s specific
             recommendations, we believe that more fundamental changes are warranted in
             the department’s management and oversight of complex programs in general.



Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                             Page 5
                    Contract Technical Requirements are Sometimes Inadequately Defined

                    Several DHS procurements have encountered problems because contract
                    technical and performance requirements were not well defined. For
                    example, the Geographic Information System (GIS) supporting the United
                    States Coast Guard’s Port Security Assessment Program is being developed
                    without identified GIS functional requirements. Likewise, the Transportation
                    Security Administration has not established a complete plan identifying
                    specific system functionality that will be delivered with its Computer-Assisted
                    Passenger Prescreening System. Best practices in industry call for carefully
                    identifying the functional requirements.

                    Audits by both GAO and our office have found that inadequate contract
                    technical requirements, such as statements of work or specifications, can
                    result in substantial cost growth, lengthy schedule delays and occasional
                    failure to meet critical mission requirements. For example, TSA faced
                    particular performance specification, scheduling, and cost growth challenges
                    in administering the NCS Pearson contract for hiring airport security
                    screeners. By approving programs without adequately defined technical
                    requirements, DHS risks likely adverse cost and schedule consequences.
                    Other Federal agencies use a combination of procurement and program
                    management oversight to improve contract technical requirements.

                    Over-Emphasis on Expediting Contract Awards May Jeopardize
                    Departmental Effectiveness

                    We have reported instances, particularly at TSA, where contracts have been
                    expedited to quickly improve the nation’s security status, especially in
                    response to Congressionally imposed deadlines in the aftermath of 9/11.
                    Some DHS procurement offices report a continuing perceived need to award
                    contracts quickly. However, programs developed at top speed can sometimes
                    overlook key issues during program planning and development of mission
                    requirements. Also, an over-emphasis on expedient contract awards may
                    hinder competition, which frequently results in increased costs. Finally,
                    expediting program schedules and contract awards may limit the time
                    available for procurement planning and development of adequate contract
                    technical requirements leading to higher costs, schedule delays, or even
                    failures to meet critical mission requirements.


Procurement Management
                    Seven of the eight procurement organizations currently housed within DHS
                    are procurement offices that joined DHS from their legacy agencies. The
                    eighth organization, the Office of Procurement Operations, was created to
       Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                    Page 6
                          serve the needs of DHS organizations that did not have dedicated procurement
                          support, such as the Science and Technology Directorate and the Information
                          Analysis and Infrastructure Protection Directorate.

                          Disparities in Staffing Among DHS Procurement Organizations Exist

                          DHS procurement organizations have substantial disparities in the amount of
                          awards per procurement staff person. We looked at data from both the Office
                          of Personnel Management’s FEDSCOPE database and OCPO to determine
                          the number of procurement staff assigned to each office. The amount of
                          awards per procurement staff person using this data ranges from a low of
                          about $3 million up to $30 million depending on the DHS procurement
                          organization. Staffing and contract award data for each procurement
                          organization is included in Appendix D. Since procurement staff throughout
                          DHS is severely limited, DHS needs to organize and use available
                          procurement staff in the most effective manner.

                          In addition, some DHS procurement offices may be significantly understaffed,
                          based on separate studies by the Center for Advanced Purchasing Studies
                          (CAPS) and Acquisition Solutions, Inc. (ASI). The CAPS study found that
                          the average amount spent per procurement employee was $5.3 million for
                          Aerospace/Defense contractors1. The ASI compared average spending per
                          procurement employee in other federal agencies with similar buying profiles
                          and found average spending per employee ratios ranging from $6.3 million to
                          $8.8 million. DHS’ average spending per procurement employee of $12 - $13
                          million is significantly higher than either of these studies with some DHS
                          offices spending an average of $25 - 30 million per person. Many
                          procurement offices have reported that their lack of staffing prevents proper
                          procurement planning and severely limits their ability to monitor contractor
                          performance and conduct effective contract administration.

                          The GAO reported that the Office of Procurement Operations lacks sufficient
                          staff and relies on interagency agreements to manage the workload. The
                          Office of Procurement Operations used interagency agreements to process
                          over 80% of its procurement during FY 2004 compared to the DHS average of
                          about 31%. GAO recommended that DHS conduct a department-wide
                          assessment of the staffing patterns within its eight procurement offices, and
                          take steps to correct workload imbalances by re-aligning resources.

                          OCPO Lacks Sufficient Staff and Authority to Conduct Effective
                          Oversight

                          The GAO reported that, until recently, OCPO had only two people to conduct
                          oversight on the eight separate procurement offices and almost $9.8 billion in

1
 ASI, working with OCPO, determined that the Aerospace/Defense category of contractors best matched DHS’
contracting profile.
             Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                          Page 7
                    procurement activity during FY 2004. The fiscal year 2005 budget provided
                    OCPO with five additional staff, but GAO could not conclusively determine
                    that the increase would be adequate to implement the oversight program.
                    GAO also stated that OCPO has unclear authority to ensure compliance with
                    DHS procurement policies and procedures. GAO recommended that DHS
                    provide OCPO with sufficient resources and enforcement authority to enable
                    effective department-wide oversight of acquisition policies and procedures.
                    Independent OCPO oversight could help DHS ensure the integrity of the
                    procurement process.

                    A number of other Federal agencies, such as the Departments of Defense and
                    Energy, as well as the National Aeronautics and Space Administration use
                    independent oversight in both the procurement and program management
                    areas to help improve agency operations and ensure compliance with agency
                    policies and procedures. The effectiveness of these organizations is enhanced
                    by their independence and direct line of reporting to the head of their agency.

                    Conclusion: DHS’ vulnerability to procurement fraud, waste, and abuse can
                    be reduced by emphasizing procurement ethics responsibilities and providing
                    a robust support structure for both program and procurement management.


Recommendations
                    We recommend that DHS:

                    1. Require expanded procurement ethics training for senior program and
                       procurement officials.

                    2. Ensure procurement and program management oversight processes monitor
                       departmental procurement activities for potential standards of conduct
                       violations.

                    3. Create and staff a DHS organization that will:
                       a. develop program management policies and procedures;
                       b. provide independent technical support to DHS senior management and
                           organizational component program managers on an as-required basis;
                           and
                       c. identify and foster best practices.

                    4. Optimize procurement organization resources and structure across DHS,
                       based on analysis and recommendations from OCPO.

                    5. Provide OCPO with sufficient staff and authority to effectively conduct
                       oversight of DHS’ procurement operations.


       Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                    Page 8
Management Comments and OIG Analysis

                    We obtained written comments as well as a plan of action (Appendix B) on a
                    draft of this report from DHS. DHS concurred with our recommendations.
                    Below is a summary of DHS’ response to each recommendation and our
                    assessment of the response.

                    Recommendation 1: Require expanded procurement ethics training for senior
                    program and procurement officials.

                    DHS concurred, and is moving ahead with implementation. The training
                    program will be completed by December 2005 and delivered to senior leaders
                    by March 2006. We consider this recommendation to be resolved, and will
                    close it when implementation is complete.

                    Recommendation 2: Ensure procurement and program management
                    oversight processes monitor departmental procurement activities for potential
                    standards of conduct violations.

                    DHS concurred, and is moving ahead with implementation. DHS is finalizing
                    a Management Directive on the Acquisition Oversight Program that will
                    increase the Department’s ability to monitor procurement activities for
                    potential standards of conduct violations. We consider this recommendation
                    to be resolved, and will close it when implementation is complete.

                    Recommendation 3: Create and staff a DHS organization that will:
                    a. develop program management policies and procedures;
                    b. provide independent technical support to DHS senior management and
                       organizational component program managers on an as-required basis; and
                    c. identify and foster best practices.

                    DHS concurred, and is moving ahead with implementation. DHS has included
                    in the FY 2007 budget authorization and funding to establish a Departmental
                    Program Management (PM) Office within the Office of the CPO. In the
                    interim, DHS will attempt to fund 2-3 staff members for program management
                    support in FY 2006 pending resolution of the FY 2006 appropriations bill.
                    We consider this recommendation to be resolved, and will close it when
                    implementation is complete.

                    Recommendation 4: Optimize procurement organization resources and
                    structure across DHS, based on analysis and recommendations from OCPO.

                    DHS concurred, and is taking steps to address staffing shortages and
                    disparities. CPO has provided input to the CFO for the FY 2007 to FY 2011
                    budgets to support increased staffing. In addition, several DHS organizational
       Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                    Page 9
             elements are working to address staffing shortfalls within existing budgets in
             advance of FY 2007. We consider this recommendation to be resolved, and
             will close it when implementation is complete.

             Recommendation 5: Provide OCPO with sufficient staff and authority to
             effectively conduct oversight of DHS’ procurement operations.

             DHS concurred and is taking steps to address staffing shortages and authority.
             Procurement staffing for oversight responsibility has increased from two to
             seven and ten additional personnel are requested in the FY 2007 budget
             request. DHS is also finalizing a Management Directive on the Acquisition
             Oversight Program that will provide formal authority to conduct oversight.
             We consider this recommendation to be resolved, and will close it when
             implementation is complete.




Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                             Page 10
Appendix A
Purpose, Scope, and Methodology




                       We conducted this assessment between April 1, 2005 and April 29, 2005. We
                       reviewed prior Government Accountability Office (GAO) and OIG reports,
                       interviewed DHS procurement and project management personnel, and
                       obtained input from OCPO. A bibliography of the OIG and GAO reports
                       reviewed is attached in Appendix C. The nature and brevity of this
                       assessment precluded the use of our normal audit protocols; therefore, this
                       review was not conducted in accordance with generally accepted government
                       auditing standards. Had we followed such standards, other matters may have
                       come to our attention.

                       Throughout this assessment, we worked closely with OCPO in identifying
                       vulnerabilities and developing recommendations. Various procurement and
                       program officials within the organizational elements also participated and
                       provided valuable insights into DHS procurement and program management
                       operations.




          Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                       Page 11
Appendix B
Management’s Comments to the Draft Report




         Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                      Page 12
Appendix B
Management’s Comments to the Draft Report




         Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                      Page 13
Appendix B
Management’s Comments to the Draft Report




         Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                      Page 14
Appendix B
Management’s Comments to the Draft Report




         Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                      Page 15
Appendix C
Bibliography



                       Department of Homeland Security – Office of Inspector General (OIG)
                       Documents

                            •   “Irregularities in the Development of the Transportation Security Operations Center”
                                (OIG-05-18, March 2005)
                            •   “Review of the Port Security Grant Program” (OIG-05-10, January 2005)
                            •   “Major Management Challenges Facing the Department of Homeland Security”
                                (OIG-05-06, December 2004)
                            •   “Re-Engining of the HH-65 Helicopter United States Coast Guard” (OIG-04-50,
                                September 2004)
                            •   “Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive
                                Detection Equipment at United States Airports” (OIG-04-44, September 2004)
                            •   “DHS Challenges in Consolidating Terrorist Watch List Information” (OIG-04-31,
                                August 2004)
                            •   “Improvements Needed to DHS’ Information Technology Management Structure”
                                (OIG-04-30, July 2004)
                            •   “Survey of the Science and Technology Directorate” (OIG-04-24, March 2004)
                            •   “Review of the Status of Department of Homeland Security Efforts to Address Its
                                Major Management Challenges” (OIG-04-21, March 2004)
                            •   “An Audit of FEMA’s Acquisition Workforce” (OIG-04-12, March 2004)
                            •   “Semiannual Report to the Congress” October 1, 2003 – March 31, 2004
                            •   “Survey of the Information Analysis and Infrastructure Protection Directorate”
                                (OIG-04-13, February 2004)
                            •   “Semiannual Report to the Congress” October 1, 2002 – March 31, 2003

                       Government Accountability Office (GAO) Documents

                            •   “Homeland Security Successes and Challenges in DHS’s Efforts to Create an
                                Effective Acquisition Organization” (GAO-05-179, March 2005)
                            •   “Homeland Security Overview of Department of Homeland Security Management
                                Challenges” (GAO-05-573T, April 2005)
                            •   “Coast Guard Preliminary Observations on the Condition of Deepwater Legacy
                                Assets and Acquisition Management Challenges” (GAO-05-307T, April 2005)
                            •   “Defense Logistics High-Level DOD Coordination Is Needed to Further Improve the
                                Management of the Army’s LOGCAP Contract” (GAO-05-328, March 2005)
                            •   “Defense Acquisitions Assessments of Selected Major Weapon Programs” (GAO-
                                05-301, March 2005)
                            •   “Contract Management Opportunities to Improve Surveillance on Department of
                                Defense Service Contracts” (GAO-05-274, March 2005)
                            •   “Defense Acquisitions changes in E-10A Acquisition Strategy Needed before
                                Development Starts” (GAO-05-273, March 2005)
                            •   “Department of Energy Further Actions Are Needed to Strengthen Contract
                                Management for Major Projects” (GAO-05-123, March 2005)
                            •   “Transportation Security Systematic Planning Needed to Optimize Resources”
                                (GAO-05-357T, February 2005)
                            •   “Homeland Security Some Progress Made, but Many Challenges Remain on U.S.
                                Visitor and Immigrant Status Indicator Technology Program” (GAO-05-202,
                                February 2005)
                            •   “Wastewater Facilities Experts’ Views on How Federal Funds Should Be Spent to
                                Improve Security” (GAO-05-165, January 2005)

          Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                       Page 16
Appendix C
Bibliography


                            •   “Coast Guard Station Readiness Improving, but Resource Challenges and
                                Management Concerns Remain” (GAO-05-161, January 2005)
                            •   “Homeland Security Agency Plans, Implementation, and Challenges Regarding the
                                National Strategy for Homeland Security” (GAO-05-33, January 2005)
                            •   “Homeland Security Further Actions Needed to Coordinate Federal Agencies’
                                Facility Protection Efforts and Promote Key Practices” (GAO-05-49, November
                                2004)
                            •   “Homeland Security Management Challenges Remain in Transforming Immigration
                                Programs” (GAO-05-81, October 2004)
                            •   “Maritime Security Better Planning Needed to Help Ensure an Effective Port
                                Security Assessment Program” (GAO-04-1062, September 2004)
                            •   “Homeland Security Federal Leadership Needed to Facilitate Interoperable
                                Communications Between First Responders” (GAO-04-1057T, September 2004)
                            •   “Border Security State Department Rollout of Biometric Visas on Schedule, but
                                Guidance Is Lagging” (GAO-04-1001, September 2004)
                            •   “Information Technology Major Federal Networks That Support Homeland Security
                                Functions” (GAO-04-375, September 2004)
                            •   “Taxpayer Information Data Sharing and Analysis May Enhance Tax Compliance
                                and Improve Immigration Eligibility Decisions” (GAO-04-972T, July 2004)
                            •   “Homeland Security Coordinated Planning and Standards Needed to Better Manage
                                First Responder Grants In the National Capital Region” (GAO-04-904T, June 2004)
                            •   “Transportation Security R&D TSA and DHS Are Researching and Developing
                                Technologies, but Need to Improve R&D Management” (GAO-04-890, September
                                2004)
                            •   “Homeland Security Efforts Under Way to Develop Enterprise Architecture, but
                                Much Work Remains” (GAO-04-777, August 2004)
                            •   “Contract Management Guidance Needed to Promote Competition for Defense Task
                                Orders” (GAO-04-874, July 2004)
                            •   “Critical Infrastructure Protection Improving Information Sharing with Infrastructure
                                Sectors” (GAO-04-780, July 2004)
                            •   “Maritime Security Partnering Could Reduce Federal Costs and Facilitate
                                Implementation of Automatic Vessel Identification System” (GAO-04-868, July
                                2004)
                            •   “Aviation Security Challenges in Using Biometric Technologies” (GAO-04-785T,
                                May 2004)
                            •   “Homeland Security Federal Leadership and Intergovernmental Cooperation
                                Required to Achieve First Responder Interoperable Communications” (GAO-04-740,
                                July 2004)
                            •   “Information Technology Early Releases of Customs Trade System Operating but
                                Pattern of Cost and Schedule Problems Needs to Be Addressed” (GAO-04-719, May
                                2004)
                            •   “Coast Guard Station Spending Requirements Met, But Better Processes Needed to
                                Track Designated Funds” (GAO-04-704, May 2004)
                            •   “Department of Homeland Security Formidable Information and Technology
                                Management Challenge Requires Institutional Approach” (GAO-04-702, August
                                2004)
                            •   “Critical Infrastructure Protection Establishing Effective Information Sharing with
                                Infrastructure Sectors” (GAO-04-699T, April 2004)

                            •   “Coast Guard Deepwater Program Acquisition Schedule Update Needed” (GAO-04-
                                695, June 2004)


          Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                       Page 17
Appendix C
Bibliography


                            •   “Homeland Security Performance of Information System to Monitor Foreign
                                Students and Exchange Visitors Has Improved, but Issues Remain” (GAO-04-690,
                                June 2004)
                            •   “Homeland Security Communication Protocols and Risk Communication Principles
                                Can Assist in Refining the Advisory System” (GAO-04-682, June 2004)
                            •   “Defense Acquisitions Knowledge of Software Supplies Needed to Manage Risks”
                                (GAO-04-678, May 2004)
                            •   “Homeland Security DHS Needs a Strategy to Use DOE’s Laboratories for Research
                                on Nuclear Biological, and Chemical Detection and Response Technologies” (GAO-
                                04-653, May 2004)
                            •   “Transportation Security Administration High-Level Attention Needed to Strengthen
                                Acquisition Function” (GAO-04-544, May 2004)
                            •   “Information Technology Homeland Security Should Better Balance Need for
                                System Integration Strategy with Spending for New and Enhanced Systems” (GAO-
                                04-509, May 2004)
                            •   “Coast Guard Key Management and Budget Challenges for Fiscal Year 2004 and
                                Beyond” (GAO-04-636T, April 2004)
                            •   “Project SAFECOM Key Cross-Agency Emergency Communications Effort
                                Requires Stronger Collaboration” (GAO-04-494, April 2004)
                            •   “Critical Infrastructure Protection Challenges and Efforts to Secure Control
                                Systems” (GAO-04-628T, March 2004)
                            •   “Coast Guard: Replacement of HH-65 Helicopter Engine” (GAO-04-595, March
                                2004)
                            •   “Homeland Security Risk Communication Principles May Assist in Refinement of
                                the Homeland Security Advisory System” (GAO-04-538T, March 2004)
                            •   “Aviation Security Challenges Delay Implementation of Computer-Assisted
                                Passenger Prescreening System” (GAO-04-504T, March 2004)
                            •   “Agencies’ Use of Procurement Flexibilities Provided in the Homeland Security Act
                                of 2002” (GAO-04-447R, March 2004)
                            •   “Contract Management Coast Guard’s Deepwater Program Needs Increased
                                Attention to Management and Contractor Oversight” (GAO-04-380, March 2004)
                            •   “Aviation Security Challenges Exist in Stabilizing and Enhancing Passenger and
                                Baggage Screening Operations” (GAO-04-440T, February 2004)
                            •   “Best Practices – Using A Knowledge-Based Approach To Improve Weapon
                                Acquisition” (GAO-04-386SP, January 2004)
                            •   “The Department of Homeland Security Needs to Fully Adopt a Knowledge-based
                                Approach to Its Counter-MANPADS Development Program” (GAO-04-341R,
                                January 2004)
                            •   “Information Technology OMB and Department of Homeland Security Investment
                                Reviews” (GAO-04-323, February 2004)
                            •   “Defense Acquisitions DOD’s Revised Policy Emphasizes Best Practices, but More
                                Controls Are Needed” (GAO-04-53, November 2003)
                            •   “Homeland Security Reforming Federal Grants to Better Meet Outstanding Needs”
                                (GAO-03-1146T, September 2003)
                            •   “Coast Guard New Communication System to Support Search and Rescue Faces
                                Challenges” (GAO-03-1111, September 2003)
                            •   “Post-Hearing Question From the May 8, 2003, Hearing on Barriers to Information
                                Sharing at the Department of Homeland Security” (GAO-03-985R, July 2003)
                            •   “Contract Management High-Level Attention Needed to Transform DOD Services
                                Acquisition” (GAO-03-935, September 2003)
                            •   “Contract Reform DOE’s Policies and Practices in Competing Research Laboratory
                                Contracts” (GAO-03-932T, July 2003)

          Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                       Page 18
Appendix C
Bibliography


                            •   “Contract Management INS Contracting Weaknesses Need Attention from the
                                Department of Homeland Security” (GAO-03-799, July 2003)
                            •   “Container Security Expansion of Key Customs Programs Will Require Greater
                                Attention to Critical Success Factors” (GAO-03-770, July 2003)
                            •   “Coast Guard Challenges during the Transition to the Department of Homeland
                                Security” (GAO-03-594T, April 2003)
                            •   “Department of Energy Status of Contract and Project Management Reforms”
                                (GAO-03-570T, March 2003)
                            •   “Information Technology Homeland Security Needs to Improve Entry Exit System
                                Expenditure Planning” (GAO-03-563, June 2003)
                            •   “Border Security: Challenges in Implementing Border Technology” (GAO-03-546T,
                                March 2003)
                            •   “Program Evaluation An Evaluation Culture and Collaborative Partnerships Help
                                Build Agency Capacity” (GAO-03-454, May 2003)
                            •   “Acquisition Workforce: Status of Agency Efforts to Address Future Needs” (GAO-
                                03-55, December 2002)
                            •   “Department of Energy (DOE) Contractor Management: Opportunities to Promote
                                Initiatives That Could Reduce Support-Related Costs” (GAO-02-1000, September
                                2002)
                            •   “Customs Service Modernization Management Improvements Needed on High-risk
                                Automated Commercial Environment Project” (GAO–02-545, May 2002)

                       General Services Administration OIG Document

                            •   “Audit of Federal Technology Service’s Client Support Center, Great Lakes Region”
                                (Report Number A040117/T/5/Z05002, December 9, 2004)

                       Other Documents

                            •   Cleland, David I. and William R. King, Project Management Handbook, 2nd ed. New
                                York, Van Nostrand Reinhold, 1988.
                            •   Defense Acquisition Guidebook, http://akss.dau.mil/dag/ accessed 4/25/05.
                            •   Glossary, Defense Acquisition Acronyms and Terms, 11th ed. Fort Belvoir, VA, the
                                Defense Acquisition University Press, September 2003.




          Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                       Page 19
Appendix D
DHS Procurement Statistics



                                Obligations and Procurement Actions2


                                                                               FY 2004
                                                                              Obligations         Procurement
                     Organizational Element                                   $ (millions)          Actions
           Customs & Border Protection                                             $981               3,861
           Federal Law Enforcement Training Center                                $117                2,971
           Immigration & Customs Enforcement                                       $848               7,705
           Transportation Security Administration                                $1,683               1,458
           Office of Procurement Operations                                      $1,926               2,581
           U.S. Secret Service                                                      $68               1,220
           U.S. Coast Guard                                                      $2,111              36,630
           Emergency Preparedness and Response                                   $1,515               3,554
                               Total                                             $9,249              59,980




2
 The data is based on preliminary reports from the Office of Chief Procurement Officer and therefore is subject to
change. The data does not include grants and purchase cards, but does include interagency agreements.

              Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                           Page 20
Appendix D
DHS Procurement Statistics




                                  Acquisition Staffing and Workload3




                                                                             FY 2004 Procurement
                                                                Number of Procurement Spending per
                                                               Procurement Obligations Staff Member
                Organizational Element                          Personnel * $ (millions) $ (millions)
         Customs & Border Protection                                74          $981         $13.3
         Federal Law Enforcement Training
         Center                                                       34                  117              3.4
         Immigration & Customs Enforcement                           78                   848             10.9
         Transportation Security Administration                       67                1,683             25.1
         Office of Procurement Operations                             73                1,926              26.4
         U.S. Secret Service                                         21                    68              3.2
         U.S. Coast Guard                                            346                2,111              6.1
         EP&R                                                         55                1,515             27.5
                         Total                                       748               $9,249            $12.4**



         * Includes GS-1102 Contracting, GS-1105 Purchasing and GS-1106 Procurement Clerical
         and Technician.

         ** While some DHS procurement organizations reported discrepancies with the data that we
         used, the reported discrepancies were not significant enough to change our conclusion that
         substantial differences exist in average contract awards per procurement person between the
         DHS procurement organizations.




3
  The data is based on preliminary reports from the Office of Chief Procurement Officer and therefore is subject to
change. The data does not include grants and purchase cards, but does include interagency agreements. Minor
differences may exist between different tables in this appendix due to rounding.

              Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                           Page 21
Appendix D
DHS Procurement Statistics




                                 Program Manager (PM) Certification




                                                                 PMs certified* and                           Percent of
                                                                   the level held.                            Certified
                                               Total       Level Level Level Total                              PMs
                                                                                                               by OE
   Organizational Element (OE)                  PMs           I          II         III     Certified
  Customs & Border Protection                    23           0          1           2           3              13%
  Federal Law Enforcement
  Training Center                                  2          1           0          1            2             100%
  Immigration & Customs
  Enforcement                                      10         3           0          1            4             40%
  Transportation Security
  Administration                                   62        14          29          13           56            90%
  Office of Procurement
  Operations                                      37         1           0           5            6              16%
  U.S. Secret Service                              1         1           0           0            1             100%
  U.S. Coast Guard                                 31         2           6          13           21             68%
  EP&R                                              9         0           0           0            0              0%
                Total                             175        22          36          35           93             53%



* PM certification indicates a level of experience within the procurement area. Level I is the basic or beginner level and
Level III is the most advanced or mastery of the skills levels. Each certification level requires the holder to have
completed selected training courses. In addition to the formal education requirements the holder must have a minimum
amount of years of experience.




              Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                           Page 22
Appendix E
Major Contributors to this Report




                       Judy Leonhardt, Director, Acquisition Management
                       David O’Connell, Audit Manager
                       Egenia Adekunjo, Management Analyst
                       Trudi Powell, Auditor
                       Ken Valrance, Auditor




          Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                       Page 23
Appendix F
Report Distribution




                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Under Secretary, Management
                       Assistant Secretary, Public Affairs
                       Assistant Secretary, Policy
                       Assistant Secretary, Legislative Affairs
                       Senior Procurement Executive
                       DHS GAO/OIG Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees as Appropriate




          Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                       Page 24
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations,
call the OIG Hotline at 1-800-323-8603; or write to Department of Homeland
Security, Washington, DC 20528, Attn: Office of Inspector General, Investigations
Division – Hotline. The OIG seeks to protect the identity of each caller and writer.




      Assessment of Department of Homeland Security’s Procurement and Program Management Operations

                                                   Page 25
